                                                                                                (.,..--:= -




                  United States Department of .the Interio r
                                O FFICE OF INSPECTOR GENERAL
                                          Central Region
                                     134 Union Blvd .. Suite 510
                                    Lalrewood, Colorado 80228



                                                           Report No. X-VS-MOA-00I0-2009
                                                                           August 31 , 2009


Memorandum

To:           Assistant Secretary for Policy, Management and Budget
               (Attention: Associate Director for Finance, Policy and Operations)

From:         Jack Rouch    g/l-;tA.
              Regional Aufut Manager

Subject:      Verification Review of Four Recommendations Considered Implemented from
              our August 2007 Audit Report "Department of the Interior Internal Control
              Program" (Report No. C-IN-MOA-0002-2006)

          The Office ofInspector General (OIG) has completed a verification review ofthe four
recommendations presented in the subject audit report. The objective of the review was to
determine whether four recommendations were implemented, as reported by the Office of
Financial Management. Based on our review, we concluded that all four recommendations were
implemented. The results of our review are summarized below.

Background

        Our August 2007 audit report, "Department of the Interior Internal Control Program,"
made four recommendations designed to assist the Department in establishing an effective
internal control program for ensuring the effectiveness and efficiency of its operations in
compliance with the Office of Management and Budget Circular A-123, "Management's
Responsibility for Internal Contro!." On September 28, 2007, the Associate Director for the
Office of Financial Management (PFM) issued a memorandum to the Office of the Inspector
General explaining the corrective actions that were implemented to address the four
recommendations. Based on this information we concluded that all four recommendations had
been implemented.

Scope and Methodology

       The scope of our review was limited to determining whether the Department
implemented the four report recommendations. To accomplish our objective, we requested and
reviewed supporting documentation submitted by the Office of Financial Management. We did
not perfonn site visits or conduct detailed fieldwork to detennine whether the underlying
deficiencies identified in the original report had been corrected. This review was not conducted
in accordance with Government Auditing Standards issued by the Comptroller General of the
United States.

Results of Review
      We concluded that the four recommendations contained in the report had been
implemented.

Recommendation 1: "Direct PFM to develop and implement additional oversight procedures
that ensure the bureaus are adequately implementing their internal control programs. These
procedures should ensure that bureaus adequately plan and prioritize internal control reviews,
adequately conduct and document those reviews, and provide accurate lists of internal control
reviews to support their annual assurance statements."

On October 8, 2008, PFM issued the Guidance for Fiscal Year 2009 Integrated Internal Control
Program which provides instructions and direction to ensure that the Secretary's Annual
Assurance Statement is accurate and adequately supported. PFM held two implementing
workshops, one in December, 2008, and one in January, 2009 to discuss the guidance and
address bureau concerns. In addition, PFM conducted and documented site visits using a
checklist as a guide. These visits are in addition to Mid-year Progress meetings and Year-end
Issue Resolution Meetings, at which bureaus and PFM review program perfonnance and
discuss/resolve material weaknesses, non-compliance, internal/external audit corrective action
issues, and any other issues.

Based on these actions, we consider Recommendation I to be implemented.

Recommendation 2: "Require bureaus to develop and implement tracking systems to monitor:
   • All internal control reviews planned, in progress, or completed and
   • The status of identified deficiencies and corresponding corrective actions. "

The Guidance for Fiscal Year 2009 Integrated Control Program requires the bureaus to plan and
track their internal control reviews and status of deficiencies identified and to monitor corrective
actions. PFM provided examples of tracking matrixes from the Bureau of Indian Affairs and the
National Business Center.

Based on these actions, we consider Recommendation 2 to be implemented.

Recommendation 3: "Direct PFM to develop and implement additional oversight procedures
for the auditfollow-up process. These procedures should require PFM analysts to adequately
document the bases for their conclusions that recommendations are resolved and implemented
and should require supervisory review of that documentation. "

PFM issued the Guidance for the FY 2009 Audit Follow-up Program and Departmental
Perfonnance Goals for Implementation of Office of Inspector General and Government
                                                                                                   .......=c= _




Accountability Office Recommendations. This guidance requires bureaus to submit adequate
supporting documentation for recommendation closure to PFM for its review and concurrence.
The guidance states that PFM will return closure requests to the bureaus if the documentation is
not sufficient to support closure ofthe recommendation. PFM also provided a completed
surname routing slip to document supervisory review of the closure determination. In addition,
PFM submits the closure documents to OlG, along with a closure memo signed by the Associate
Director, PFM.

Based on these actions, we consider Recommendation 3 to be implemented.

Recommendation 4: "Consider implementing the following best practices, where appropriate:
   • Requiring all regional and state directors and program managers to provide annual
     assurance statements.
   • Requiring all program managers to complete annual assurance questionnaires.
   • Promoting greater visibility for the internal control program by developing executive
     guides and requiring bureau and office heads to address these issues with their
     management teams.
   • Developing a staff that specializes in conducting internal control reviews and providing
     related training. "

DOl has taken actions to implement all or part of three of the four suggested best practices.
Selected bureau managers and heads of bureaus are required to provide annual assurance
statements, PFM has issued the working draft of the DOl Program Managers Guide, and all
offices are required to identify audit liaison and internal control coordinators.

Based on these actions, we consider Recommendation 4 to be implemented.

Conclusion

We communicated the results of this review to the Office of Financial Management on July 7,
2009. We consider Recommendations 1 through 4 fully implemented and no further action is
required. If you have any questions concerning this memorandum, please contact me at (303-
236-9243.

cc:    Associate Director, Office of Financial Management
       Audit Liaison, Department of the Interior
       Focus Leader for Management Control and Audit Follow-up
